No.
INTHE

~upreme <rrourt of ±4e ~niteb ~±ates
CACI PREMIER TECHNOLOGY, INC.,

Petitioner,
V.
SUHAIL NAJilvl ABDULLAH AL SHIMARI; SALAH HAsAN

NUSAIF JASIM AL-EJAILI; AsA'AD HAMZA HANFOOSH
AL-ZUBA'E,

Respondents.
CERTIFICATE OF COMPLIANCE
I hereby certify that I am a member in good standing of the bar of this Court and
that the Petition for a Writ of Certiorari contains 7,752 words and complies with the
word limitation established by Rule 33.l(g)(i) of the Rules of this Court.
Dated: November 15, 2019

Amir C. Tayrani

